No.

IN THE SUPREME COURT OF THE UNITED STATES

KIM BLANDINO

PETITIONER
vs.
THE EIGHTH JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA, IN AND FOR
THE COUNTY OF CLARK AND DISTRICT COURT
JUDGES OF THE EIGHTH JUDICIAL DISTRICT
COURT JUDGES OF THE EIGHTH JUDICIAL
DISTRICT COURT,
and
THE STATE OF NEVADA
RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF THE STATE OF NEVADA

PETITION FOR A WRIT OF CERTIORARI
Kim Blandino #363075 Pro Se
CCDC In Custody House Arrest Module
330 S Casino Center Blvd.
Las Vegas, Nevada 89101
(702) 219-5657
No Fax
Kim43792@earthlink.net
Counsel for Applicant Kim Blandino

RECEIVED

DEC 2 2 2020
©FFICE OF THE CLERK
SUPREME COURT, U.S.

I
QUESTIONS PRESENTED
(1) Whether this Court’s decision in Rippo v. Baker, 137 S. Ct. 905 (2017)
which concerns a structural error of the Constitutional denial of an impartial judge
in a criminal case under the fifth and fourteenth amendment due process clauses
requires correction or vindication before a trial or conviction where all the facts of
the disqualifying issues are fully developed.
(2) Whether a criminal Defendant as an individual that exercises his right to Establish
himself as a religion under the First Amendment to the U.S. Constitution and in
the free exercise thereof in his belief and practice is called by his Creator to
investigate judicial corruption, can be required to go through pretrial and trial by
the very judges that he is investigating and which these same judges have
knowledge of these ongoing investigations consistent with the

First, Fifth and

Fourteenth Amendments to the U.S. Constitution.
(3) Whether a State’s appellate and highest court can refuse to apply Supreme
Court precedent such as in Rippo. Withrow v. Larkin. 421 U.S. 35, 47. 95 S.Ct.
1456. 43 L.Ed.2d 712 (1975) and

Williams v. Pennsylvania. 579 U.S. . 195

L.Ed.2d 132 (2016) again and again and still'be given deference and it not be held
, that bringingAhe issue to said state courts is not only establish futility that it is .
also an exercise in futility

' >

II
TABLE OF CONTENTS

CORPORATE DISCLOSURE STATEMENT

1

PARTIES TO THE PROCEEDING

1

LIST OF ALL PROCEEDINGS and DECISIONS BELOW

1

JURISDICTION

2

TABLE OF AUTHORITIES

v

INTRODUCTION

3

STATEMENT OF THE CASE

3

A. Factual Background

7

REASONS FOR GRANTING THE WRIT
A.

24

NOT ONE OF ANY OF THE DISTRICT COURT ORDERS NOR THE
APPELLATE COURT ORDERS REFERENCE RIPPO OR APPLY THE
PROPER STANDARD AND THEREFORE THE EGREGIOUS FAILURE
LANGUAGE RIPPO USED IN HIS PETITION FOR CERTIORARI MAKES
THIS CASE MORE EGREGIOUS

B.

28

THAT THE STANDARD IN RIPPO OF RISK OF BIAS IMPLIES A FUTURE
TENSE

THAT

MANDATES

ANY

PROCEEDINGS

WITH

A

COMPROMISED JUDGE BE BARRED FROM GOING FORWARD IN ANY
CRIMINAL PROCEEDINGS

29

c.

Ill
THIS COURT MUST TAKE THIS ISSUE ON CERTIORARI AS OTHER
STATES EVEN AFTER THE RIPPO RULING ACT AS THOUGH RIPPO
HAD NEVER EVEN BEEN DECIDED THUS A VERY SIGNIFICANT SPLIT
AS WELL AS A CONFLICT WITH VARIOUS CIRCUIT COURTS

CONCLUSION,

32
33

ASSEVERATION IN SUPPORT AND RULE 14(4) STATEMENT

36

INDEX TO APPENDICES
APPENDIX A
In the Court of Appeals for Nevada Blandino v. State of Nevada et. A1 81765COA Order Denying Petition for Extraordinary Relief (Sept. 25, 2020).
APPENDIX B
In the District Court for the State of Nevada, Eighth Judicial District Nevada v.
Blandino

C-19-341767-1.

Decision

and

Order

Denying

the

Motions

For

Reconsideration and Disqualification (August 19,2020).
APPENDIX B.l
In the District Court for the State of Nevada, Eighth Judicial District Nevada v.
Blandino C-19-341767-1. Decision and Order Denying the May 7, 2020 and July 10,
2020 Motions to Disqualify Judge (August 3,2020)
APPENDIX B.2

IV
In the District Court for the State of Nevada, Eighth Judicial District Nevada v. Blandino
C-19-341767-1 Decision and Order (Denying Motion to Disqualify) (January 23,2020).

APPENDIX C
In the Nevada Supreme Court Blandino v. State of Nevada et. A1 Case No. 81765 Order
Denying petition for Review (Nov. 6, 2020).
APPENDIX D
In the Nevada Supreme Court Blandino v. State of Nevada et. A1 Case No. 81765 Order
Denying Stay (Nov. 19, 2020).
APPENDIX E
EMERGENCY
DISQUALIFY,

CURRENT

COVID

MAY

2020

MOTION........ TO

Filed in State Dist. Court May 7, 2020.

APPENDIX F
EMERGENCY MOTION TO DISQUALIFY

filed in State Dist. CourtAug.

11, 2020
APPENDIX G
EMERGENCY

DEMAND

DECISION.......FILED Aug. 11 2020.
APPENDIX H

TO

HAVE

RECONSIDERED

THE

V
STATE’S NOTICE OF MOTION AND MOTION TO REMAND DEFENDANT
FOR COMPETENCY PROCEEDINGS.......filed Sept 17, 2019

TABLE OF AUTHORITIES
Cases
Abney v. U.S..
431 U.S. at 662

25

Arizona v. Fulminante.
499 U.S. at 310 (1991)

25

Blandino v. State
914 P.2d 624 (Nev. 1996) Cert, denied....................................

14,23

Calvary Chavel Dayton Valley v. Sisolak.
No. 19A1070 (July 24, 2020).....................................................

PASSIM

Church of the Lukumi Babalu Aye. Inc, v. City of Hialeah.
508 U.S. 520, 542(1993)...........................................................

28

Commonwealth v. Bernal.
200 A.3d 995 (Pa. Super. Ct. 2018).........................................

32

Commonwealth v. Watson.
228 A.3d 928 (Pa. Super. Ct. 2020)............................

32

Cook v. State.
No. W2018-00237-SC-R11-PC (Tenn. Aug. 25, 2020)

35

Echavarria v. Filson.
896 F.3d 1118 (9th Cir. 2018)

passim

Gilliam v. Foster.
75 F.3d 881 (4th Cir. 1996)
In re Kaminski.

25

(

Vi
960 F.2d 1062 (D.C. Cir. 1992).............

33

Justices of Boston Mun. Court v. Lvdon.
466 U.S. 291 303 (1984). ^......

......25

North Carolina v. Alford.
400 U.S. 25(1970)............

26

Party. Eighth Judicial Dist. Court.
120 Nev. At 224, 88P.3dat841

.....

• ♦

...

«y

....30

People v. Alexander.
No. 348593 (Mich. Ct. App. May 14, 2020

32

Rippo v. Baker.
137 S. Ct. 905 (2017).................................

PASSIM

Smith, v. Eishth Judicial Dist. Court.
107 Nev. 674, 677, 818 P.2d 849. 851 (1991)

*. • •: •* .29-30

State v. Wilks.
No. 50287-9-II (Wash. Ct. App. Apr. 23, 2019)

33

Title Guar. Escrow Servs. u. Wailea Resort Co..
456 P.3d 107 (Haw. 2019).............

33

Turney v. Ohio.
273 U.S. 510 (1927)......................

25,26

Williams v. Pennsylvania.
579 U.S. , 195 L.Ed.2d ] 32 (2016)

• ♦. ♦

• •

•

•

. .. .

... «.»>

...... i

Withrow v. Larkin.
421 U.S. 35. 47: 95 SUh 1456! 43 L.Ed.2d 712 U9751

..i

United States v. Jackson
(1968) 390 U.S. 570. 581 120 L.Ed^d 138. 147. 88 S. Ct. 120910

.11

//

1//J
Statutes
28 U.S.C. 1257(a)

2

28 U.S.C. sec. 1651

2

NRS 199.430

8

NRS 205.320

7

Biblical Authorities
2 Corinthians 3:18 KJV and ESV

12

Exodus 10:22KJV.

14

Genesis 38:7 KJV.

21

James 2:14-26 KJV,

3

Job 1:12 KJV.

4

Job 42: 7-17 KJV.

4

Luke 23:28 KJV,

22

Mark 12:31 KJV,

24

Matthew 5:25 KJV,

23

Matthew 10:17-19 KJV.

11

Matthew 10:34-37 KJV,

3

Matthew 16:1-3 KJV,

21-22

Matthew 23:4-5 KJV,

27-28

Matthew 25:14-30 KJV

15-16

Psalms 91 KJV,

12,13

Revelation 1:7 KJV,
Rev. 1:7 KJV,
Romans 8:28 KJV,
2 Timothy 3:16-17 KJV,

8
22
4
4-5

Other Authorities
Americans with Disabilities Act (“ADA”)

6

1

* '

V (II
Youtube hearing video of July 1,2020
httns://www.voutube.com/watch?v=SF0G4rK swc
5

VIDEO OF JUDGE HERNDON ACCUSING KIM OF ACTING LIKE A**HOLE
https://www.voutube.com/watch?v=azB-MoH8i4w
16
VIDEO OF PORTLAND BLAMING FEDS PAGE 22
https://www.the-sun.com/news/1159138/mavor-ted-wheeler-feds-blin-protestsportland-oregon/................................................................................................................

20

Nevada Judges disciplined
http://iudiciaLnv.gov/Discipline/Decisions/New Decisions/

34

Nevada Judges facing discipline
http://iudicial.nv.gov/Discipline/Pending Charges/SOC/ ......

Justice Alito address at the federalist society

....... 34

20

Rules
FRE 901

Supreme Court Rule 29.6,

Hypothetical “Blandino Plea”

21

1

26-27

/

CORPORATE DISCLOSURE STATEMENT

Pursuant to Supreme Court Rule 29.6, Kim Blandino is an individual and a
religious establishment and counsel for Kim Blandino under gift from his Creator
and has no state corporate status whatsoever.

PARTIES TO THE PROCEEDING

The applicant (defendant-petitioner below) is Kim Blandino (“Kim”) a religious
establishment under God and is protected under the first amendment to the U.S.
Constitution. Kim is over 65 years of age after birth, being October 14, 1955. Yet
now from date of conception Kim will be 66 on January 21, 2121. See Conception
calculator at

https://www.thecalculator.co/health/Concention-Calculator-12.html.

Kim is not a member of any organized church, yet is of the Judeo-Christian faith
with the belief that there is one God who sent his Son Jesus to save man from his
failing state.
That Kim is in custody in Clark County Nevada in a house arrest module.
The respondents (plaintiffs-respondents below) are the State of Nevada and all
the Judges of the Eighth Judicial District Court of Nevada and are all members of
the Nevada State Bar.

LIST OF ALL PROCEEDINGS AND DECISIONS BELOW

X
In the Court of Appeals for Nevada Blandino v. State of Nevada et. A1 81765COA

Order Denying Petition for Extraordinary Relief

(Sept . 25, 2020 )

reproduced in Appendix as Appendix A.
In the District Court for the State of Nevada, Eighth Judicial District Nevada v.
Blandino

C-19-341767-1.

Decision

and

Order

Denying

the

Motions

For

Reconsideration and Disqualification (August 19,2020) reproduced in Appendix as
Appendix B.
In the District Court for the State of Nevada, Eighth Judicial District Nevada v.
Blandino C-19-341767-1. Decision and Order Denying the May 7, 2020 and July 10,
2020 Motions to Disqualify Judge (August 3,2020) reproduced in Appendix as
Appendix B.l.
In the District Court for the State of Nevada, Eighth Judicial District Nevada v.
Blandino C-19-341767-1 Decision and Order (Denying

Motion to Disqualify)

(January 23,2020) reproduced in Appendix as Exhibit B.2.
In the Nevada Supreme Court Blandino v. State of Nevada et. A1 Case No. 81765
Order Denying petition for Review

(Nov. 6, 2020)

reproduced

in Appendix as

Exhibit C.
In the Nevada Supreme Court Blandino v. State of Nevada et. A1 Case No. 81765
Order Denying Stay (Nov. 19, 2020) reproduced in Appendix as Appendix D.
JURISDICTION
This Court has jurisdiction under 28 U.S.C. 1257(a). Kim has given the final
State decisions. Alternatively, the Court has jurisdiction under 28 U.S.C. sec. 1651.

3
INTRODUCTION AND STATEMENT OF THE CASE
Kim Blandino (‘Kim”) has an established religion with Kim as an indivisible unit
of this established religion with the Creator and his son Jesus, although Kim
fellowships with others. That the Creator wishes individuals to be indivisible. That
Jesus himself said in Matt. 10 34-37 KJV (King James Version)
“34 Think not that I am come to send peace on earth: I came not to send
peace, but a sword.
36 For I am come to set a man at variance against his father, and the
daughter against her mother, and the daughter in law against her
mother in law.
36 And a man’s foes shall be they of his own household.
37 He that loveth father or mother more than me is not worthy of me:
and he that loveth son or daughter more than me is not worthy of me.”
(emphasis added)

Kim has sincerely held religious beliefs and practices. Kim objects to the phrase
“religious worship” as it relates to Kim. The first amendment rightfully states free
exercise of religion. That many socialist countries and dictatorships round the
world allow “religious worship” but not religious practice. Faith without works is
dead. See James 2:14-26 KJV. Therefore, totalitarian regimes abhor practice that
threaten their power and will allow “worship” which implies no works.
Kim believes that the Creator of all things (“Creator or God or Almighty God”)
can move individuals that believe in him much like the chess player can move
pieces on a chess board. That there is another mover of pieces in this Universe that

H
also moves pieces on this “chess board of life”. He is called Satan, the Devil, Lucifer,
ad nauseum. That the Creator moves pieces to do good and do his will. That in the
above analogy the individual can seek to be either the white or the black side of the
chessboard, yet with people, white or black skin color does not mean good or
evil(many chess boards are not differentiated by color). People doing evil consist of
both wicked and the weak, the weak are the handmaidens to the wicked.

That

Satan is allowed by the Creator to move persons under limitations to do evil. See
Job 1:12 KJV “And the LORD said unto Satan, Behold, all that he hath is in thy
power; only upon himself put not forth thine hand.”. Yet, despite what Satan does
“all things work together for good to them that love God, to them who are called
according to his purpose.” Romans 8:28 KJV. Therefore, Satan is always frustrated
because God’s will is ultimately achieved despite what Satan does. When Job was
tested and passed the test he was given more than he had before. The collateral
consequences were that Job’s three friends (Eliphaz, Bildad and Zophar) that
wrongfully accused Job of sin were exposed and God allowed Job to pray for them.
See Job 42: 7-17KJV.
That the King James Version of the scriptures for example is the Word from
God. Inspired men were moved to write those words in foreign languages and these
words were translated into many other languages throughout time. That those
words are worthy for many purposes for believers. See 2 Timothy 3:16-17 KJV:
“16 All scripture is given by inspiration of God, and is profitable for
doctrine, for reproof, for correction, for instruction in right­
eousness:

5

17 That the man of God may be perfect, thoroughly furnished unto all
good works.” (emphasis added)

That Kim is being vindictively prosecuted because Kim was called by his
Creator into investigating judicial corruption and misconduct and seeking to file
complaints with the Nevada Commission on Judicial Discipline (“NCJD”) against
bad judges in the Eighth Judicial District Court of Nevada “EJDC” that refused to
make amends by apologizing to Kim. That Kim is being prosecuted for extortion of a
pro tern judge (Michael Federico) for the City of Las Vegas Municipal Court (felony)
and impersonating a public officer (gross misdemeanor). Allegedly impersonating
being an investigator with the NCJD. Even though Kim represented that “Kim was
a volunteer, unpaid [which means unofficial] investigator working with the NCJD”.
Kim faces a maximum of 11 years in prison) on the two counts.
That at a scheduled hearing in the above state case C-19-341767-1 on July 1,
2020 Kim was denied entry into this pretrial hearing for declining to wear a mask
because of religious practice and denied the ability to make any kind of record to
that court. This hearing is available for review on Our Nevada Judges at
https://www.voutube.com/watch7v-SF0G4rK swc (transcript unavailable due to
covid) for review by this court. That Kim has now been refused entry into the
courtroom numerous times because of Kim’s religious objection and medical
exemption to wearing a mask. That Kim who is self-representing Kim in accord
with Kim’s “faretta rights” and religious practice is being threatened with having to
have his self-representation revoked by a very judge Kim moved to have

0
disqualified, Judge Michelle Leavitt (“Leavitt”), for declining to wear a mask. The
EJDC and Leavitt refuses to make reasonable accommodations for Kim to
personally appear under either the Americans with Disability ct (“ADA”) or the
Religious free exercise clause of the U.S. Constitution.
Kim gave the State District Court multiple opportunities to address the
disqualification issue. All relief was refused. Because there are no pre-trial appeals
in Nevada. Kim had no alternative but to ask the Nevada Appellate Courts for an
Extraordinary Writ. Either Mandamus, Prohibition, Habeas or Certiorari. Both the
Nevada Supreme Court (“NSC”) and the Court of Appeals refused relief.
Kim must have relief from this structural error Kim must not be forced to
proceed forward through pretrial then trial with a Judge that is compromised under
Rippo v. Baker. 137 S. Ct. 905 (2017). and Echavarria v. Filson. 896 F.3d 1118
(2018) Cert, denied Gittere v. Echavarria. May 20 2019.
The Court of Appeals and the Nevada Supreme Court is perfectly fine with Kim
going through pretrial, trial, appeal, possible postconviction habeas, state and
federal and then up to 10 years later having a federal court say, yes under Rippo
and Echavarria the judge should have disqualified! Both Rippo, Echavarria and the
co-defendant of Echavarria, Carlos Gurry, have had to wait decades for relief on this
structural error of being denied an impartial judge. Kim has not seen or seen
reported one tear nor apology for the repeated failures and refusals to correct this
deprivation of rights sooner by any judge or prosecutor responsible. Yet God will
hold those to account for the bad acts or omissions and the refusal to apologize!

7
Unfortunately, the Nevada Appellate Courts have engaged in lawless refusal not
only to follow the U.S. Constitution but to follow the Nevada Constitution and the
Nevada Statutes. Kim has had much experience with these courts, judges and
justices as part of Kim’s investigation into judicial corruption and misconduct and
does not level this charge lightly.

That most if not all of the bar in Nevada know

that the trial courts and Appellate Courts of Nevada are corrupt and are for the
most part accepting or apathetic to it. That Kim requests that this court take
judicial notice that it is for this very reason that the plaintiffs in Calvai^v Chapel
Dayton Valley v. Sisolak, No. 19A1070 (July 24, 2020) chose to file suit in the
“federal pipeline” as opposed to the state system. Any law firm operating in Las
Vegas representing Calvary that chose to go through the Nevada system as
opposed to the federal system would have not only been an exercise in futility it
would have been gross malpractice.
Kim would be remiss after investigating corruption in the Nevada court actively
and almost full time for years and to a lesser extent for decades if Kim did not
present the above and show the court the unclean hands that Kim is and has been
dealing with.

Factual Background
Kim was arrested on or about May 20, 2019 on a criminal complaint by the state
and put through a preliminary hearing in Las Vegas Township on just the
aforementioned Extortion charge ( NRS 205.320 ) App. G Exhibit GEC Register of

8
Actions pg. 1 . Notably, the sitting justice of the Peace Amy Chellini (Chellini)
disqualified herself because the complaining witness was also a pro tern justice for
justice court (Michael Federico (“Federico”) and Federico had relieved Chellini in
the past. Kim was allowed to self-represent with appointed stand-by counsel per
Kim’s religious practice of self-representation. A thorough faretta canvass was
performed. Kim gave highly detailed answers commensurate with Kim’s over forty
years of studying law and Kim’s prior experience. Kim was released initially on
3,000 bail and on punitive house arrest (high level) with a house arrest module. The
bail was later raised to 50,000 at the request of

a vindictive prosecutor in

retaliation for Kim seeking legal redress in a City of Las Vegas court matter .
Numerous constitutional violations occurred in the justice court which under
existing case law can result in dismissal of all charges before any trial and raised in
the district court once Kim has an impartial judge to raise them. The District
Attorney. A Grand Jury Indictment was filed on July 12,2019 in District Court and
the justice court proceedings were dismissed App. G Exhibit GEC attached thereto
Register of actions pg. 1. An additional charge to the extortion charge was added
that of impersonating a public officer gross misdemeanor NRS 199.430. App. G
Exhibit GEC pg. 1. Without any comment the release conditions were left in place
by the state district court judge Leavitt. Leavitt, against Kim’s will and over Kim’s
objections did an arraignment and a faretta canvass. Again, Kim embellished
answers so that Leavitt knew with crystal clear clarity that Kim’s assertion of the
right to self representation was not only knowing and voluntary. That Kim’s

°l
assertion of the right was with a great deal of knowledge and the law and much
expertise. Kim filed to disqualify Leavitt and all of the judges of the EJDC as soon
as was possible. Kim made repeated filings to disqualify. For brevity sake Kim has
attached three of these filings as Appendix G, H and I. With exhibits these filings
filed on May 7, 2020 (330 pages w/exhibits)(116 pages w/exhibits), August 11, 2020
and August 11, 2020(16 pages w/exhibits) respectively.
Nevada has grounds and a procedure for filing for disqualification of district
court judges in their Nevada Revised Statutes (“NRS”) 1.230 and 1.235 in addition
there is Rule 2.11 of the Revised Nevada Code of Judicial Conduct (“code”). In the
foregoing submissions Kim cited directly Echavarria App. G pgs 3,4,5, as well as
Rippo pgs 4,5. Both Rippo and Echavarria are extremely significant as both not
only arose from Nevada, they both occurred in the EJDC and thus not in Leavitt’s
back yard they occurred in Leavitt’s front yard. Leavitt, to Kim’s knowledge
attended monthly judges meetings with both suspect judges, Lehman and the other
judge in the EJDC.
Kim has had no impartial judge to make any motions to since the indictment
was filed. It would totally undermine Kim’s claim of partiality should Kim make
any such motions prior to reaching a court of last resort. Kim has only made
selective notices and demands as Kim would do to any lawless person that was
criminally assaulting Kim’s rights such as a batterer or kidnapper. See Appendix G
Exhibit GEC passim.
On Sept. 17, 2019 the D.A. vindictively moved to remand Kim to competency

10
proceedings. See Appendix J attached). Leavitt granted this yet interceded in this
process and became a referring attorney at the same time as being a judge and
signing the preprinted, Request for Evaluation for Competency. See Appendix G
Exhibit IEC attached thereto. It must be noted that Leavitt was the referring
attorney on the form and at the same time the judge signing the order. It must also
be noted that the D.A. made this motion based exclusively on Kim’s appellate filings
for extraordinary pretrial relief to the NSC and Kim’s activities as an investigator.
The D.A attached to this motion a notice to Kim’s justice of the peace in Justice
court to attempt to resolve her judicial misconduct issues. See APP H Exhibit 1
attached thereto. The D.A. fully expects Kim to cower in fear and be chilled from
acting as Kim’s Creator directs Kim to act and thus bolster the D.A. case that Kim
knows that Kim is doing wrong and crime.
A key part of this notice is on page 4 thereof where Kim writes under the
heading “WARNING!” in pertinent part:
“So please be warned that if Kim’s words and deeds herein are twisted
judgment faces all who do so from the Creator. Kim will continue to
obey the law and seek legal and proper redress. Kim will continue to
freely exercise his religious beliefs and practices and free speech and
investigate judicial corruption and misconduct People who serve evil
always try to intimidate good people from speaking up this is the
purpose of twisting words and deeds. This current President of the
United States faces this same thing every day. People lying about him
and then silent about true evils in the world.” Pg. 4 2nd paragraph

So sure enough this was wrongfully used to support a malicious remand to
competency proceedings. Vindictive prosecution is intended to chill rights of the
vindictively prosecuted. It is "patently unconstitutional" to "chill the assertion of

II
constitutional rights by penalizing those who choose to exercise them." (United
Slates v. Jackson (1968) 390 U.S. 570, 581 r20 L.Ed.2d 138. 147. 88 S. Ct. 12091.')
Yet Leavitt lied and checked boxes on the form that Kim did not appear to
understand the charges or allegation, understand the adversarial nature of the
process, display appropriate courtroom behavior and demonstrate ability to provide
relevant testimony. As Kim is required to speak and write as God gives Kim to
speak Matthew 10: 17-19:
“ 17 But beware of men: for they will deliver you up to the councils, and
they will scourge you in their synagogues;
18 And ye shall be brought before governors and kings for my sake, for
a testimony against them and the Gentiles.
19 But when they deliver you up, take no thought how or what ye shall
speak: for it shall be given you in that same hour what ye shall speak.”

Therefore Kim in conformity with his practice must state that Leavitt on this
above form was lying and she knows she was lying. Kim was ultimately remanded
against his will to a mental health facility for an evaluation Lakes Crossing Center
(“LCC”). See Appendix G Exhibit GEC attached thereto Page 3 on Jan. 24,2020.
Kim was declared competent and was released from LCC. Kim is currently out and
Judge Bell (“Bell”) reduced Kim’s house arrest from high level punitive to medium
level non-punitive on her own authority and motion. See Appendix G Exhibit GEC
attached page 3. At LCC one of the twenty year employee supervisors there told
Kim upon great knowledge that the prior chief judge Glass would send people to
LCC just if they irritated her. This judge is thankfully not on the bench. This judge

a

notably, is the wife of the current elected D.A.

Steve Wolfson. As Alice stated,

“curiouser and curiouser”. Another aspect of corruption in the EJDC the reasonable
doubt standard for referral to competency has been obliterated in most respects just
making a request virtually guarantees referral to competency.
With the Covid hysteria and lockdowns and such even though Kim invoked his
speedy trial rights. See Appendix H and I page 2. Yet Kim has had proceedings
continued and continued due to stop and start of court proceedings due to this covid
hysteria.
Kim has an appearance scheduled on Dec. 17, 2020. Yet Kim has been refused to
be allowed into the courthouse or courtroom because Kim cannot wear a mask due
to both a medical condition and a religious exemption to wearing a mask.
That 2 Corinthians 3:18 KJV and ESV states:
"And we all, with unveiled face, beholding the glory of the Lord, are
being transformed into the same image from one degree of glory to
another. ... And the Lord--who is the Spirit-makes us more and more
like him as we are changed into his glorious image." ESV. The KJV
states: “But we all, with open face beholding as in a glass the glory of
the Lord, are changed into the same image from glory to glory, even as
by the Spirit of the Lord.” (emphasis added).

Also Psalm 91 KJV is clear beyond measure. In pertinent part this reads:
“ He that dwelleth in the secret place of the most High shall abide
under the shadow of the Almighty.
21 will say of the LORD, He is my refuge and my fortress: my God; in
him will I trust.
3 Surely he shall deliver thee from the snare of the fowler, and from the
noisome pestilence.

13
4 He shall cover thee with his feathers, and under his wings shalt thou
trust: his truth shall be thy shield and buckler.
6 Thou shalt not be afraid for the terror by night; nor for the arrow that
KfLieth by day;
6 Nor for the pestilence that walketh in darkness; nor for the destruc­
tion that wasteth at noonday.
7 A thousand shall fall at thy side, and ten thousand at thy right hand;
but it shall not come nigh thee.
Only with thine eyes shalt thou behold and see the reward of the
wicked.
8

9 Because thou hast made the LORD, which is my refuge, even the most
High, thy habitation;
10 There shall no evil befall thee, neither shall any plague come nigh
thy dwelling.” (emphasis added)

Please take judicial notice that pestilence is mentioned twice and plague is
mentioned once. That while any serious pestilence is a plague, not all plague is a
pestilence. Note that one of the ten plagues during the Moses affair was three days
of darkness. See Exodus 10:22 KJV.
This court must take judicial notice that Kim has not worn a mask since this
covid hysteria despite the tyrant governor Sisolak’s discriminatory and

draconian

measures. See Calvary Chapel Dayton Valiev v. Sisolak, No. 19A1070 (July 24,
2020) (where Alito, Thomas and Kavanaugh and separately Gorsuch in dissent
would have granted injunctive relief)
Kim sought relief with the NSC. The NSC routinely transfers cases down to the
Court of Appeals (“COFA” ,COFA used to avoid confusion with Certificate of
Appealability “COA”). Nevada has the “push down” appellate court system. See

Ik

Appendices A,B... Kim gave every opportunity even after the COFA denied relief for
the NSC to entertain a Petition for Review of the COFA. See Appendix B. Kim
asked for a stay pending review before this court which was denied. See Appendix
A.
This court must notice that at no time does the district court or the appellate
courts address the proper standard. Not once is Rippo or Echavarria or the
underlying cases in those decisions or the proper standard. For these Nevada courts
it is as though Rippo and Echavarria were never ever decided!
Kim’s calling to investigate judicial corruption and misconduct precedes these
criminal charges by years. Kim has been docketed four times previously with this
court. Cert, denied however. . In Blandino v. State 914 P.2d 624 (Nev. 1996) Cert.
denied, Blandino v. Nevada. 519 U.S. 881 (1996). Kim challenged the denial of
self representation on appeal for a pro se. In fact, this court took the issue up three
years later in Martinez v. Court of Appeals of California Fourth App. Dist,
528 U.S. 152 (2000) and Blandino was cited in the briefing for the Respondents.
Kim represented himself at trial in the underlying case in Blandino in accord
with Kim’s being called by his Creator to do so, yet was refused on appeal to self
represent. Kim’s religious beliefs and practices are not a light or transient thing.
The Creator gave Kim not only the situations over the years to be involved with and
in. Kim has been given certain gifts to challenge evil even when it comes in the form
of persons in high places with power and position as to the law. The Creator
demands that when one is given gifts or “talents” they must not be wasted. See

IS
Matthew 25:14-30 KJV which states:
“14 For the kingdom of heaven is as a man travelling into a far country,
who called his own servants, and delivered unto them his goods.
15 And unto one he gave five talents, to another two, and to another
one; to every man according to his several ability; and straightway took
his journey.
16 Then he that had received the five talents went and traded with the
same, and made them other five talents.
17 And likewise he that had received two, he also gained other two.
18 But he that had received one went and digged in the earth, and hid
his lord's money.
19 After a long time the lord of those servants cometh, and reckoneth
with them.
20 And so he that had received five talents came and brought other five
talents, saying, Lord, thou deliveredst unto me five talents: behold, I
have gained beside them five talents more.
21 His lord said unto him, Well done, thou good and faithful servant:
thou hast been faithful over a few things. I will make thee ruler
over many things: enter thou into the iov of thy lord.
22 He also that had received two talents came and said, Lord, thou de­
liveredst unto me two talents: behold, I have gained two other talents
beside them.
23 His lord said unto him, Well done, good and faithful servant; thou
hast been faithful over a few things, I will make thee ruler over many
things: enter thou into the joy of thy lord.
24 Then he which had received the one talent came and said, Lord, I
knew thee that thou art an hard man, reaping where thou hast not
sown, and gathering where thou hast not strawed:
25 And I was afraid, and went and hid thy talent in the earth: lo,
there thou hast that is thine.
26 His lord answered and said unto him, Thou wicked and slothful
servant, thou knewest that I reap where I sowed not, and gather
where I have not strawed:

u
27 Thou oughtest therefore to have put my money to the exchangers,
and then at my coming I should have received mine own with usury.
28 Take therefore the talent from him, and give it unto him which hath
ten talents.
29 For unto every one that hath shall be given, and he shall
have abundance: but from him that hath not shall be taken
away even that which he hath.
30 And cast ye the unprofitable servant into outer darkness: there
shall be weeping and gnashing of teeth.” (emphasis added)
So Kim has been given all the gifts to investigate judicial corruption and
misconduct and to follow through. In fact, Kim has caused Judges Herndon and
Bare of the EJDC to be issued a letter of caution by the NCJD. Kim assisted in
having Kim’s family court judge removed from office forever. Judge Frances Fine.
can never ever be a judge again in Nevada. Judge Herndon in contrast has now
been elected to the NSC. Herndon during an open hearing stated to Kim that if Kim
wanted to act like an a**hole Kim could act like an a**hole and then proceeded to
order Kim’s co-defendant in another case to file separately from Kim. See
httns://www.youtube.com/watch?v=azB-MoH8i4w (please excuse full spelling out of
a**hole on the title Kim did not post this on you tube). That this court must take
judicial notice of Lord Acton’s quote, “power corrupts and absolute power corrupts
absolutely, great men are almost always bad men

” That tyrants as Herndon

was acting in that moment get upset when their “divinity” is challenged.
What is most amazing to Kim is that Kim has been juxtaposed in so many ways
and the Creator has moved Kim like a chess piece. Much like Joseph in Exodus was
moved in amazing directions to set the stage for amazing events to come. It is only

17
looking back that we see how God’s plan unfolded perfectly.
Kim must therefore note that the Creator has also moved members of this court
to be in this position at this time and under these conditions. First, Justice Thomas
was subjected to a “high tech lynching” by dishonorable and reprehensible
individuals that don’t have any more integrity in their entire body than Justice
Thomas has in a fingernail. Emboldened by what these same and similar
individuals did to Judge Bork, this set the stage for the Thomas drama.
Next, bold patriots outraged that George Bush would nominate on the basis of
friendship and loyalty a person not well suited to the task, resulted in a very fine
Justice Alito being nominated and confirmed after the first nominee was
withdrawn. An attempted filibuster failed.
Next, miracle upon miracle Donald Trump was elected to his first political office
he ever ran for! Against all odds, just like the state of Israel being reborn. This
resulted in the very fine Neil Gorsuch (“Gorsuch”) to be nominated and confirmed.
Only because Gorsuch was filling the “Scalia seat” the maniacal “Borkers” and “
Thomasers”did not give Gorsuch an attempted

lynching. Yet a filibuster was

invoked and the republicans invoked the so called “nuclear option” and was
confirmed by only a 54-45 vote. This amazingly was set up by Harry Reid who had
set up simple majority for all but Supreme court Justice votes as to court nominees.
Next, an entire set of encyclopedias could be written about the way Justice
Kavanaugh and his family were ill- treated. Kim still envisions to this day Justice
Thomas approaching Kavanaugh when he came to the court and saying, “and I

18
thought I got it bad, welcome to the club, would you like a beer or something
stronger? By the skin of his teeth Kavanaugh beaten and bloodied but not defeated
was confirmed 50-48.
Finally, the cherry on top for God’s most amazing creation of circumstances, Amy
Coney Barrett! If there is any doubt among believers that this Creator does not love
drama. These above facts must be considered especially divine looking backward
now . Consider, Justice Ginsburg had every opportunity to exit gracefully and have
President Obama nominate a Justice to the very seat Barrett sits with the same
Ginsburg philosophy. Yet Ginsburg gambled that Hillary Clinton would be assured
to replace Obama. Then Ginsburg would get to have her cake and eat it too!
Trump wins though, and Ginsburg wants desperately to hold out for a Democrat
replacement. Yet God in his infinite power and choreography “pulls the plug” on
Ginsburg with just enough time for Trump to make the multi rail pocket billiards
bank shot, and get a third Supreme court nominee.
The maniacal “Borkers” and “Thomaseres” and “Kavanaughids” huff and puff
and intimidate everybody to wait till after the election to nominate and confirm.
Understand first though, that Trump is motivated to nominate Barrett because of
Senator Feinstein’s “dogma is deep within you” nonsense and the subsequent
spotlight this put on Barrett. Now only because the Creator has such a master of
the Senate like Senator McConnell in position is this possible. A lesser man would
have folded to pressure. The vote again is narrow 52-48. Thanks again Harry Reid!
The most vile things were said about Barrett in the media as well as the process.

n
The media and the senators tried to bully Barrett into preemptively agreeing to
recuse from cases. A laughable attempt that would not be asked of a left leaning
judicial activist judge in a quadrillion years.
To Kim’s mind and other bible believing and common sense, loving persons
around the world, justice Barrett in her thoughts words and deeds, her work ethic
her recognition of her various duties and obligations. As a referee at home with the
“law of Amy” on the one hand and hat. And yet with her other “hat” with the court
agreeing to be bound by the “Chains of the Constitution” . Wife, mother, daughter
and Justice. Barrett is personification of grace and dignity, humility and wisdom.
There is no doubt in Kim’s mind that all of the above events that had to coalesce
for Thomas, Alito, Gorsuch, Kavanaugh and Barrett (“TAGKB” in order of
appearance) to be on the bench at this most amazing time in history is God’s own
divine providence. And now looking Back this group has proven the significant
difference almost immediately. The recent religious freedom cases where relief was
denied, pre-Barrett are now being granted! This un-final presidential election and
the various cases will badly need TAGKB, should Biden in fact replace Trump.
Kim must be excused for spending time delving into this foregoing chronology.
However it is important and vital that Kim can convince this court that the Creator
calls each one of us to be and to see and to know and to share the wonders and
marvels of God’s handiwork. The great artist be it sculpture, painting or other,
works with dead things. The Creator makes his masterpieces with the living, in a
three dimensional world moving through the fourth dimension of time. He is the

10
very Creator of time. All we need do is to will God’s will to be on the right side of
things. Yet the Creator frustrates Satan by using his “meddling” to further work his
purpose and instill resolve.
The great injustice that was done in public to TAGKB and the lies and
distortions have all worked to good. As long as we don’t resent the events we suffer
we are tried like gold through the fire. See 1 Peter 1:7. Yet Kim knows that with

these events as they are unfolding, evil is advancing. America saw “mostly peaceful
protesters” attacking a federal courthouse. With mayors and governors criticizing
the president and federal authorities for trying to protect the federal courthouse in
Portland. See https://www.the-sun.com/news/1159138/mavor-ted-wheeler-feds-blmprotests-portland-oregon/.
Now in retaliation this court can take judicial notice that the democrats are
threatening to pack the court ala FDR’S failed attempt to get rulings he wanted.
The democrats act as though a left-leaning activist Supreme Court was their
birthright! The culture war that the late Justice Scalia spoke of on more than one
occasion is soon to become a hot civil war unfortunately.
Justice Alito in his excellent address to the federalist society last month alluded
to the above among other things. Nevada figured prominently in that address. Alito
mentioned that Senators called the Supreme Court a sick institution and it “might
have to be restructured” two important quotes from the Alito address are these:
The Supreme Court Justice from one such place recounted what
happened when his court was considering a case that was very
important to those in power. He looked out the window and saw a
tank pull up and point its gun toward the court, message was clear,

II
decide the right way. Or the courthouse might be Shall we say
restructured? That was a crude threat. But all threats and
inducements are intolerable. Judges dedicated to the rule of law have a
clear duty. They cannot compromise principle or rationalize any
departure from what they are obligated to do..............................................
“ Liberty lies in the hearts of men and women when it dies there.
No constitution, no law, no court can do much to help it. for all
Americans standing up for our constitution and our freedom is work
that lies ahead. It will not be easy work. But when we meet next year,
I hope we will be able to say that progress was made, (emphasis added)
Transcription provided by Otter and exerpts from
https://reason.com/volokh/202Q/ll/12/video-and-transcript-of-iusticealitos-kevnote-address-to-the-federalist-societv/ (subject to typos)

Kim recites the above to show the court that Kim’s belief is that the Creator does,
contrary to many other religious beliefs take an active role in this world. The holy
scriptures have numerous examples of this. Even for individuals God can and will
intervene in his pleasure. Individuals such as Moses, Daniel Shadrach, Meshach,
Abdnego, for their benefit. God in contrast

will strike individuals dead in an

instant for disobedience, Lot’s wife(turned to a pillar of salt see Genesis 19:17,26),
Er, Judah’s firstborn struck dead (see Genesis 38:7KJV ) etc. etc.
Therefore, it is Kim’s religious belief that God struck down Justice Ginsburg so
that Justice Barrett could take her place. God can give individuals to see his plan
and purpose. God’s own son Jesus warned the hypocrites of his day in Matthew
16:1-3:
“16 The Pharisees also with the Sadducees came, and tempting desired
him that he would shew them a sign from heaven.
2 He answered and said unto them, When it is evening, ye say, It will
be fair weather: for the sky is red.

12
3 And in the morning, It will be foul weather to day: for the sky is red
and lowering. O ye hypocrites, ye can discern the face of the sky; but
can ve not discern the signs of the times?” (emphasis added)

The above signs of the times culminating in the important confirmation of
Justice Barrett is one of those important signs to true believers. Not to diminish
that the “high tech lynching” Justice Thomas was not an important sign. What
happened to Judge Bork before Thomas and then Justice Kavanaugh after fits
perfectly with the scripture. When the Daughters of Jerusalem were weeping when
Jesus was bearing his cross, Jesus under tremendous anguish and physical pain
said:
“ For if they do these things in a green tree, what
shall be done in the dry?” See Luke 23:28 KJV

So what was done to Bork and Thomas was done when the tree was green and to
Kavanaugh was when the tree was dry. Much like a building crescendo in a great
musical composition it builds and builds. There is no way the non-credible witnesses
would have been put before the American people in the early 1990’s against
Kavanaugh, and so on and so on. Yet even this presages what is to come. The
Creator gives us the book of Revelation and all of the prophets to give fair warning
of the plagues that are to come and of course of the promise to come. Jesus will be
coming back the same way he left in the clouds. See Rev. 1:7 KJV and every eye will
see him (something incidentally, only technologically possible in the 21st century
with smart phones and such). Such a crescendo the world has never seen before.

13
Jesus first appearance was in full humility. His exit on the cross was brutal painful
and humiliating in the extreme. His reemergence was only to a chosen few.
“Building and building”, “wheels within wheels”.
Let this court therefore have no doubt that Kim’ religious beliefs and practices
are sincere. That Kim has the right under God to establish a religion and that these
rights do not come from the U.S. Constitution the Const, only ensures these rights
to be supported and defended by those so sworn to uphold protect and defend these,
“so help me God”. As far back as 1995 in Blandino v. State supra, at 35 Kim
argued his right to self-representation on appeal, in part on the RFRA because “God
instructed him not to retain counsel, but to pursue appeal in proper person.” Id. At
355 ((in point of fact Kim demanded to proceed pro se not proper person, although a
book could be written on the difference, pro se implies competence, proper person
does not. (There also is no plea of innocence, it is a plea of not guilty.) Kim cannot be
compelled to repeat ignorance when the truth is known)).
If not but for this calling, Kim was given by his Creator, Kim would not be
investigating judicial corruption and misconduct. Also, if not for Kim’s following the
religious practice of having to try to resolve disputes directly with an adversary or
aggrieved person Kim would not even be facing the charges below. See App E pg. 18
lines 6- 18 There are at least two controlling biblical principles and quotes at work
here. First, is Matt. 5:25 KJV:
“25 Agree with thine adversary quickly, whiles thou art in the way
with him; lest at any time the adversary deliver thee to the judge, and
the judge deliver thee to the officer, and thou be cast into prison.”

IH
And, of course the very well known Mark 12:31 KJV, “Thou shalt love thy
neighbour as thyself’ KJV. So, whether Kim is the offending party or the party
offended Kim is required to resolve a situation at the source or as close to the source
of the situation as possible and always as quickly as possible. This of course is the
very basis for civil settlement and criminal plea bargaining that if not allowed in
America would collapse the criminal justice system as America knows it!
Kim therefore is being persecuted and prosecuted for his religious beliefs and
practices which must not be allowed under the Constitution. See App E pg. 18 lines
13-18. This type of persecution is what people fled from to come to America. This
should not be happening here.
REASONS FOR GRANTING THE WRIT
This court mandated to the entire country that aside from actual or
camouflaging bias, that considering all the circumstances alleged, the risk of bias
was too high to be constitutionally tolerable. Is the standard for disqualification.
Rippo at 907 . The Nevada Supreme Court is still not consistently applying Rippo.
Moreover, as it is clear the denial of an impartial judge is a structural error, being
forced to have a compromised or partial judge is no different than having no judge
at all in the courtroom in a criminal case.
Nevada’s highest appellate court’s are content, nay, happy to allow Kim to go to
trial, appeal, and to then have a federal court be forced to give relief under Rippo
after Kim has completed an entire sentence in prison. This must not be allowed any
more than someone who is precluded from having to suffer a trial under the double

IS
jeopardy clause of the U.S. Constitution to be required to go to trial under the
theory that an appeal after an unnecessary trial has an adequate remedy on appeal.
See Gilliam v. Foster. 75 F.3d 881 (4th Cir. 1996)

(a first trial after a mistrial is

stopped mid trial to have full vindication of the right). A portion of Kim’s
constitutional protection would be lost if Kim had to endure [a trial or pretrial ]
before seeking to vindicate constitutional rights at the federal level. See Justices of
Boston Mini. Court v. Lvdon. 466 U.S. 294. 303 (1984); Abney v: U.S.. 431 U.S. at
662

Kim asks that this court accepts this case under direct review because of an issue
of broad public interests and various courts are split in dealing with the
disqualification issue and Hippo.
A “structural” error is a defect affecting the framework within which the trial
proceeds. See Arizona v. Fulminante. 499 U.S. at 310

(1991). Lack of an

impartial judge is one of these Tumey v. Ohio. 273 U.S. 510 (1927). In Tumey the
Mayor had a financial interest . In the instant case judge Leavitt’s very career is at
stake. Kim is investigating Leavitt among other judges for corruption and
misconduct. As a result Kim has asked Leavitt to resign from the bench, App. G
page 23 lines 2-6. Kim has vowed to do all he can to see that Leavitt is removed
from the bench App. G pg. 21 line 9-12. Kim has in fact filed paperwork stating that
Leavitt can stop Kim from getting Leavitt from being removed by convicting and
sentencing Kim, App. Pg. 27 lines 23-28. This is a far greater interest than in
Tumey. Especially considering the huge salaries and benefits of EJDC judges.

Kim cannot imagine a more compelling case for disqualification. For years before
coming to these criminal charges Kim has been investigating for corruption all the
judges of the EJDC and particularly Leavitt. Leavitt had stipulated to wrongdoing
and a public reprimand for judicial misconduct. Including failure to be candid and
honest with disciplinary agencies. See App. G Exhibit KEC attached thereto
passim. In fact there were four separate issues where Leavitt admitted failing to be
honest with the Commission and the Commission so found, App. G Ex. KEC at
page 3 lines 11-28. Leavitt should have and could have been removed as a judge
forever in Nevada for this willful conduct chronicled by the NCJD. This of course is
why Leavitt accepted a “plea bargain” .
The COFA and the NSC hold that Kim should go to trial with a biased judge and
then appeal or seek collateral relief and that is somehow in some alternate universe
an adequate remedy. This cannot be the case. As Kim pointed out, Leavitt is a
prosecutorial judge against Kim. It cannot be that Kim be forced to trial with a
prosecutorial judge. Being a structural error this is the same as going to trial with
no judge! Turney did not decide this question yet the import of Rippo and the cases
before it, as well as justice demand it.
Does Kim have to create a new type of plea? This court can take judicial notice
that the Alford plea originated in 1963 in North Carolina v. Alford, 400 U.S. 25
(1970). Rather than go through a multi week trial and then the outcome be virtually
assured with the prosecutorial Leavitt. Kim would be far better to take a “Blandino
Plea” It would go something like this:

27
“I Kim Blandino plead guilty, not because I am guilty and not because
the prosecution has sufficient evidence to obtain a conviction. I plead
guilty because I have a judge that is not impartial under existing case
law and Kim is prohibited from having this disqualification issue
heard except on a direct appeal. That therefore Kim could be forced to
do an entire prison sentence before Kim could get a proper court to
invalidate the conviction due to a judge that should have been
disqualified or recused as happened in the Rippo and Echavarria case,
that waited decades to have their convictions reversed. Therefore I
Kim Blandino do hereby plead guilty. Reserving Kim’s right to appeal
the disqualification of the judge and judges to the appellate court.”
With all due respect the above process seems insane in a civilized country. What
good is the right to an impartial judge denial of which is a structural error if a
person has to suffer great injury in order to redress the right? This cannot be so.
Kim does not know if the court would accept such a plea or not. Yet if an error is
structural to Kim this seems obvious.
For example if Kim were being forced to get on an airplane where it was
obvious that the structure of the tail was just about to fall off and Kim turned to
the party forcing Kim to fly and pointed out this structural error and the response
was you must fly in the plane first and then appeal this structural error after (if
you survive) you cannot avoid the flight! If you survive the flight you see that
proves the obvious risk was acceptable to all of us on the ground. If it was our life
you see we would have never taken the risk. But you are a bug.
This is where Matthew 23: 4-5 KJV comes into play:
“4 For they bind heavy burdens and grievous to be borne, and lay
them on men's shoulders; but they themselves will not move them
with one of their fingers.

ll
6 But all their works they do for to be seen of men: they make broad
their phylacteries, and enlarge the borders of their garments,” (empha­
sis added)
Kim as an established religion under the first amendment cannot be treated
differently or worse than others because of that establishment and the free exercise
of those the beliefs and practices of that Establishment. See Church of the
Lukumi Babalu Aye. Inc, v. City of Hialeah, 508 U.S. 520, 542 (1993).

A.

NOT ONE OF ANY OF THE DISTRICT COURT ORDERS NOR THE

APPELLATE COURT ORDERS REFERENCE RIPPO OR APPLY THE
PROPER STANDARD AND THEREFORE THE EGREGIOUS FAILURE
LANGUAGE RIPPO USED IN HIS PETITION FOR CERTIORARI MAKES
THIS CASE MORE EGREGIOUS
The NSC and the COFA and the district courts in Nevada are still not using the
Ripyo line of cases as demonstrated by these orders and thus using the wrong
standard. Kim asks that the court take judicial notice that in Rippo’s original
petition under reasons for granting the writ in part stated that:
“Certiorari Review is Warranted Due to the Nevada Supreme Court’s
Egregious Failure to Apply this Court’s Settled Law...........”.
So, therefore this failure now by all these courts is a super egregious failure which
this court must not tolerate.
At no point did the trial court nor the appellate courts deny that Kim was and is
investigating Leavitt and the other EJDC judges. So there really are no factual
dispute issues. It is not disputed that Kim began his investigating of Leavitt and

11
the other EJDC judges prior to the criminal charges being levied.
Appendix E,F, and G are the various requests for disqualification that resulted in
the various denials by the district court. Kim submitted almost all of Kim’s
paperwork as a result of his investigation of Leavitt. This shows a course of conduct
that demonstrates misconduct and corruption. Despite this evidence Kim was
denied repeatedly the disqualification sought.

B. THAT THE STANDARD IN RIPPO OF RISK OF BIAS IMPLIES A
FUTURE TENSE THAT MANDATES ANY PROCEEDINGS WITH A
COMPROMISED JUDGE BE BARRED FROM GOING FORWARD IN ANY
CRIMINAL PROCEEDINGS
The statutory scheme that provides for disqualification of trial judges itself
requires that motions for disqualification be filed in advance of hearings or trials as
much as is possible. See NRS 1.230 and 1.235. Kim cited this in his motions. See
App E. passim. This itself is a recognition of the severe violation of due process that
being forced to go forward with a partial judge is a structural error.
The Nevada courts in the extreme show there total hypocrisy in the clearest
biblical sense of the word by declaring that “Mandamus is the appropriate vehicle to
seek disqualification of a judge,”

Towbin Dodse, LLC v. Eighth Judicial

Dist. Court.. 121 Nev. 251. 254-55, 112 P.3d 1063. 1066. (2005). Yet out of the other
side of their mouth the NSC states that Mandamus is discretionary see Towbin at
254. The COFA in APP C said so on page 1 lines 24-26 citing Smith v. Eighth

3<*
Judicial Dint. Court. 107 Nev. 674. 677. 818 P.2d 849. 851 (1991).
The NSC cannot have it both ways if disqualification is the appropriate vehicle to
seek disqualification then it is the ordinary relief not extraordinary as to that issue,
further demonstrating the hypocrisy that does not take Columbo to figure out.
Assuming, Kim was convicted after being forced to go to trial with the challenged
judge or judges. Then Kim immediately could file an emergency mandamus to void
the conviction based on disqualification.
Lets, let Columbo look at the language in APP A “generally, an appeal is an
adequate legal remedy precluding writ relief. Pan. 120 Nev. At 224, 88 P.3d at
841”. Pg. 2 lines 1-2. With a partial judge an appeal is not adequate being a
structural error a trial then is no more than a mere mockery!
A court cannot say that mandamus for a certain type of claim is the appropriate
vehicle to seek disqualification. Then on the other side of their mouths say an
appeal is the appropriate vehicle to seek disqualification. Yet this is what the
Nevada Appellate courts are saying. This is tantamount to saying a bullet proof vest
is the appropriate vehicle to protect a gun shot injury or death. Then when denied
the vest, to go on to say a good doctor is generally an adequate remedy to protect
against a gun shot injury or death knowing full well the bulletproof vest was
wanted and requested.
This position of the nevada appellate courts as to Kim is just insane unless the
goal is to bash Kim from pillar to post. The defendant and co-defendant in
Echavarria v. Filson. 896 F.3d 1118 (9th Cir. 2018) that also had disqualification

3 I
issues successfully resolved, waited decades to have their convictions overturned,
after thousands of hours of attorney and court time. They did not have the benefit of
Kim’s complete pretrial knowledge of the disqualification issues. Kim however does.
This court must not allow the NSC to willfully and maliciously drag out this
issue unnecessarily. To do so is to allow the most egregious violations to continue
and even get more bizarre than the facts that exist here. How about Nevada lets a
judge decide a criminal case where his own mother-in- law is on trial for criminal
charges. Then when the trial court denies a disqualification motion and the motherin-law petitions for mandamus from the NSC. The mother-in-law is told wait till
after trial and after an appeal for relief. Insane!
The very unanswered question in both Rivpo and Echavarria because the facts
of the risk of partiality were not fully known pretrial, must Rippo, Echavarria and
Kim be required to go through a pretrial and/or trial with a judge that had no
constitutional authority to preside over in a criminal case? In Kim’s instance Kim
has hidden nothing from all courts and Kim has shown all the facts of the
disqualifiable issues. Here the risk must be considered as constitutionally high as it
could possibly be. If in fact an employee or a paid contractor working with the
NCJD was investigating actively Leavitt and other judges and Leavitt and those
judges fully knew of that investigation and said individual was on trial for a felony
and gross misdemeanor charge it must be inconceivable that said official would be
forced to have Leavitt or any of the other judges as his trial judge! The only thing
different here is Kim is not an official. This cannot make any difference, to allow

n

otherwise makes America closer to a dictatorship and satanic rule than a republic
and a nation under God.
C. THIS COURT MUST TAKE THIS ISSUE ON CERTIORARI AS OTHER
STATES EVEN AFTER THE RIPPO RULING ACT AS THOUGH RIPPO
HAD NEVER EVEN BEEN DECIDED THUS A VERY SIGNIFICANT SPLIT
AS WELL AS A CONFLICT WITH VARIOUS CIRCUIT COURTS
In

People v. Alexander, No. 348593 (Mich. Ct. App. May 14, 2020) the

Michigan Court of Appeals speaks of great lengths about Tumev and they even say
this in their opinion on disqualification:
“Two recent decisions of the United States Court of Appeals for the
Fifth Circuit provide contemporary, and particularly instructive,
illustrations of the above principles set forth in Tumev, Dugan,
and Ward.” People u. Alexander, No. 348593, at *12 (Mich. Ct. App.
May 14, 2020). (emphasisi added)

Although in People the issue is the constitutionality of a statute. The issue of
impartiality of the judge is heavily discussed as to that issue and the fact that
Rippo is not even addressed is extremely troubling and represents a split among
state courts.
Also Commonwealth v. Watson. 228 A.3d 928 (Pa. Super. Ct. 2020) a case
decided well after Rippo in 2020 also does not refer to Rippo even though the
defendant is granted a new sentencing before a different judge. This court uses the
“appearance of bias standard”. Citing, Commonwealth v. Bernal. 200 A.3d 995
(Pa. Super. Ct. 2018) decided after Rippo again. Although Williams is cited in
Bernal, Rippo is not even cited.

33
Also in Title Guar. Escrow Servs. v. Wailea Resort Co., 456 P.3d 107 (Haw.
2019) a disqualification case there is no citation to Rippo or any of its progeny. See
also Cook v. State. No. W2018-00237-SC-R11-PC (Tenn. Aug. 25, 2020). Also,
State v. Wilks. No. 50287-9-II (Wash. Ct. App. Apr. 23, 2019) (no mention of Rippo
or progeny whatsoever “must be evidence of judge’s actual or potential bias)
Therefore there is a serious conflict among the state courts of last resort. Also
apparently with circuit courts. In Rote v. Comm, on Judicial Conduct. Civil
Action No.: 19-01299 (RC) (D.D.C. Nov. 6, 2019)(no mention of Rippo

wrong

standard is used relying on In re Kaminski. 960 F.2d 1062 (D.C. Cir. 1992) (A
judge should disqualify himself only if a reasonable person would question his
impartiality,)

CONCLUSION
Kim is over 65 years old. Kim’s Creator called Kim to investigate judicial
corruption and misconduct. One of the charges against Kim is impersonating an
investigator for the NCJD. Kim in this regard will need to call Leavitt as a witness
if a trial is conducted. Will Leavitt rule on the very expected motion to quash the
subpoena of her as prospective witness and judge? Showing that Kim was actively
investigating Leavitt and other judges must be part of the defense for this gross
misdemeanor charge.
If the unclean hands doctrine applies as to a state and a state’s court system it
should apply to Nevada. There is severe judicial misconduct issues in Nevada and

3*+
specifically Southern Nevada. The amount of judges disciplined is staggering from
1992

to

present

can

be

seen

at

http://iudicial.nv.gov/Discipline/Decisions/New Decisions/ . Three judges in Clark
county, two of which are EJDC judges and one is a justice of the peace in Southern
Nevada

can

be

seen

to

be

facing

charges

at

http://iudicial.nv.gov/Discipline/Pending Charges/SOC/ . Judges Early and Scotti
under investigation by Kim. And in fact, the NCJD if more zealous could easily be
bringing may more charges against more judges.
Rinno and Echavarria were and are definitely important cases to Nevada and
to the broad public in the nation. Being structural errors these are part of the very
structure of America and American jurisprudence. That a man cannot be judged by
someone who is biased or where there is the risk of bias. While cutting off hands in
Arabic countries greatly deters theft, greater than the deterrent for theft in
America. Individuals must not be deterred from bringing cases or defending cases in
court knowing that they “roll the dice” with whether the right to having an
impartial judge will be strictly honored and protected prior to being unfairly tried.
As the dissenting Justices implicitly pointed out in Calvary with this Covid
situation one fared better “rolling the dice” in running a Casino (pun intended) than
running a Church.
In this regard Kim believes this court should be cognizant of the chilling effect
of these issues at hand are. Although Kim is resolute because of one of the gifts that
the Creator has given Kim. Others may very well not be and may be of little faith.

3£
This court must grant the petition for

certiorari and reverse the decree of the

Nevada Supreme Court and/or the Court of Appeals for Nevada. In the alternative,
Kim requests that this Court grant certiorari, vacate the decision of the Nevada
Supreme Court and/or the Court of Appeals and remand for further proceedings
requiring the disqualification Kim seeks and issue a published opinion that clarifies
and demands that persons not have to in the future suffer a compromised or partial
judge for any length of time longer than to have a different judge assigned.
Also to grant a stay of the proceedings in Nevada pending determination of this
petition.
Also it is highly anticipated the NSC and/or the COFA will attempt to avoid
following precisely this court’s order. Therefore Kim requests that this court accept
continuing jurisdiction over this matter, if and when Kim needs to request
compliance by Nevada Courts.
In the alternative to grant such other relief as is proper and just and speedy.
DATED this 15th day of December 2020

Kim Blandino#363075
CCDC In Custody House Arrest Module
330 S Casino Center Blvd.
Las Vegas, Nevada 89101
(702) 219-5657
No Fax
Kim43792@earthlink.net

ASSEVERATION IN SUPPORT AND RULE 14(4) STATEMENT

I Kim Blandino state under penalty of perjury that I am over 65 years of age and
have read the foregoing and the same is true and correct except as to those
matters of belief and belief and as to those matters Kim believes them to be
true. And that:
1.

Kim asks that this court excuse any spelling and grammar errors or other
failures as Kim has been given to do so much work Kim has done as well as
possible.

2.

That the appendices and exhibits attached are true and correct copies of the
originals and are therefore authentic under FRE 901.

3.

That Kim has prepared this submission with the help of his Creator to have
in it, accuracy and brevity and clarity that is essential to a ready and
adequate understanding of the points requiring consideration in accord with
Rule 14(4) and is written in accord with Luke 12:11-12 KJV.

4.

That this submission is not intended to vex harass or for any improper
purpose.

DATED this 15th day of Dec., 2020
/•

Kim Blandino#363075
CCDC In Custody House Arrest Module
330 S Casino Center Blvd.
Las Vegas, Nevada 89101
(702) 219-5657
No Fax
Kim43792@earthlink.net

